<html>
<title> - NOMINATIONS OF HON. CAROL WALLER POPE, ROBERT A. SALERNO AND DARLENE M. SOLTYS</title>
<body><pre>[Senate Hearing 114-411]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-411

                 NOMINATIONS OF HON. CAROL WALLER POPE,
                ROBERT A. SALERNO AND DARLENE M. SOLTYS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

         NOMINATIONS OF HON. CAROL WALLER POPE TO BE A MEMBER,
        FEDERAL LABOR RELATIONS AUTHORITY, ROBERT A. SALERNO AND
     DARLENE M. SOLTYS TO BE ASSOCIATE JUDGES, D.C. SUPERIOR COURT

                               __________

                            DECEMBER 3, 2015

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        
        
        
   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-987 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
        
        
        
        
  
  
  
  
  
  
  
  
  
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Deirdre G. Armstrong, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Carper...............................................     2
    Senator Portman..............................................    13
    Senator Ernst................................................    20
Prepared statement:
    Senator Lankford.............................................    23
    Senator Carper...............................................    24

                               WITNESSES
                       Thursday, December 3, 2015

Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     4
Hon. Carol Waller Pope to be a Member, Federal Labor Relations 
  Authority
    Testimony....................................................     5
    Prepared statement...........................................    26
    Biographical and financial information.......................    28
    Letter from the Office of Government Ethics..................    47
    Responses to pre-hearing questions...........................    49
Robert A. Salerno to be Associate Judge, D.C. Superior Court
    Testimony....................................................     7
    Prepared statement...........................................    70
    Biographical and financial information.......................    71
    Responses to post-hearing questions..........................    91
Darlene M. Soltys to be Associate Judge, D.C. Superior Court
    Testimony....................................................     8
    Prepared statement...........................................    92
    Biographical and financial information.......................    93
    Responses to post-hearing questions..........................   115
Statement submitted for the Record from the Hon. Paul Strauss, 
  Shadow Senator from the District of Columbia...................   116
 
                             NOMINATIONS OF
    HON. CAROL WALLER POPE, ROBERT A. SALERNO AND DARLENE M. SOLTYS

                       THURSDAY, DECEMBER 3, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. James Lankford, 
presiding.
    Present: Senators Lankford, Portman, Ernst, Sasse, and 
Carper.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. I am going to go ahead and begin our 
hearing today. Good morning to you. And then we will have 
others that will join us in due time.
    Today, we are going to consider the nominations of Mr. 
Robert Salerno and Ms. Darlene Soltys for the position of 
Associate Judge in the Superior Court for the District of 
Columbia, as well as the nomination of Ms. Carol Waller Pope 
for the position of Chair of the Federal Labor Relations 
Authority (FLRA).
    The Committee takes these nominations very seriously. We 
are pleased to have strong nominees before us.
    Mr. Salerno is a native of New Jersey, received a Bachelor 
of Arts degree from Brown University and a law degree from the 
University of Virginia School of Law. After graduation, Mr. 
Salerno practiced law with several D.C. area law firms, honing 
skills in civil litigation and white collar criminal defense. 
This year, he became Special Counsel of Schulte Roth and Zabel.
    Ms. Soltys is a native of Washington State, the other 
Washington. She received a Bachelor of Arts degree from the 
University of Maryland (UMD) and a law degree from Georgetown 
University. After graduation, Ms. Soltys clerked for the 
Honorable Gregory Mize on the Superior Court for the District 
of Columbia. Following her clerkship, she embarked on a 23-year 
career in prosecution, working for the D.C. Attorney General 
(AG), the Maryland State Attorney, and the U.S. Attorney's 
Office.
    In addition to these impressive resumes, Mr. Salerno and 
Ms. Soltys possess the necessary skills and judgment to serve 
the District of Columbia. The Committee staff reached out to a 
variety of these nominees' colleagues and affiliates, who 
actually spoke very highly of them.
    Ms. Pope is a native of Pittsburgh. She received her 
Bachelor of Arts degree from Simmons College and a law degree 
from Northeastern University School of Law. After law school, 
she worked at Boston University and the Department of Labor 
(DOL) before joining the Federal Labor Relations Authority in 
1980.
    The Committee staff also had the opportunity to be able to 
interview Mr. Salerno, Ms. Soltys, and Ms. Pope on an array of 
issues ranging from notable cases to their community service 
and pro bono work. They have thoughtfully and competently 
answered each question to our satisfaction.
    To date, the Committee has found you to be qualified for 
the positions you have been nominated. I look forward to 
speaking with you a bit more today on your experience and 
accomplishments and how you intend to bring them to bear in a 
fair and impartial manner for the FLRA and the District of 
Columbia.
    And with that, I recognize the Ranking Member of the full 
Committee, Senator Carper, for any opening statement he would 
like to make.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, good morning.
    Senator Lankford. Good morning.
    Senator Carper. This man has been with us for about a year 
and he is already chairing the full Committee. That is pretty 
good.
    Eleanor, nice to see you. Welcome. Congresswoman, nice to 
see you.
    Ms. Pope, Mr. Salerno, Ms. Soltys, we are honored to have 
you here and welcome you, your family, and your friends.
    I think before I make any opening remarks, a lot of us are 
thinking about--when I was in the Navy, I was stationed in 
California and did not live in San Bernadino, but traveled 
through there from time to time, and I continue to follow the 
developments there as the law enforcement folks conduct their 
investigations. We feel and pray for the folks whose lives have 
been taken, whose lives are in jeopardy, and the families that 
are mourning their loss. It is a tough time for them, a tough 
time for our country. We are keeping them in our prayers.
    I again want to thank you for coming. I want to thank you 
for your willingness to serve. For 8 years of my life, I was 
privileged to be Governor of Delaware, and one of the jobs of 
Governors is to actually nominate people to serve on the bench. 
And, frankly, when I ran for office for Governor in 1992, I had 
35 joint appearances with my Republican opponent, a good guy, 
and in those 35 joint appearances and debates, nobody ever 
asked what criteria I would use to nominate people to serve as 
State judges, Supreme Court, Court of Chancery, Superior Court, 
Family Court, Court of Common Pleas, Magistrate Courts, all of 
those, and no one ever asked. It turned out it was one of the 
most important parts of my job.
    So, I learned quickly to figure out what to look for in men 
and women that I might nominate, and I decided that one of the 
things I wanted to make sure that we did, that we had a 
judiciary--just like I wanted to build an administration that 
was diverse, a cabinet that was diverse, a leadership team that 
was diverse, I wanted to have a judiciary that was diverse and 
looked like my State in terms of gender, race, and so forth, 
and it would also have in just two or three people. We had a 
Judicial Nominating Committee just kind of like the commission 
that you all have that brings at least two of the three of you 
here to us today.
    I just want to say--and I interviewed them all. I 
interviewed everyone that came to me nominated by our 
commission. And, I want to say the qualities in the education, 
job experience of our two judicial nominees stacks up well 
with, I think, any group of nominees submitted to me as 
Governor by our Judicial Nominating Commission--people who are 
bright, people who know the law, people that have 
unquestionable integrity. What did Alan Simpson used to say? 
Former Senator Alan Simpson used to say about integrity, if you 
have it, nothing else matters. If you do not have it, nothing 
else matters.
    And, the folks that we have talked to who know you, who 
know of your work, know of your background, know, really, of 
your character, have said just wonderful things. I would be 
delighted--I know they say stuff like this about our Chairman, 
but I would be delighted to know if people said those kinds of 
things about me. Maybe some day, they will.
    But, I think the folks in Washington, DC, are lucky that 
you are willing to serve on the bench and pleased that we 
finally moved through the Senate with help from our Chairman 
and others. We had people who had been nominated 2 years ago, 
waited 2 years to get people confirmed. That is awful and we 
have to do a whole lot better than that. My hope is that we 
will do a lot better than that with these two nominations 
before us today.
    I want to say to Ms. Pope, thank you for your willingness 
to continue to serve, and my hope is, I think we have another 
person with whom you serve on the Authority, a Republican whose 
term is coming up, I think maybe later this year, maybe early 
next--and there might be an opportunity for us to hopefully 
reconfirm you to serve and maybe the other person, your other 
colleague, as well. That would be, I think, a good outcome. So, 
hopefully, we can do that expeditiously.
    I want to thank the Chairman of the Committee for the way 
he approaches his work, and he is a golden rule guy. He treats 
people the way he wants to be treated and we are lucky to have 
him here and we are lucky to have you all here. Thank you for 
joining us today.
    And, I have a statement for the record,\1\ Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 24.
---------------------------------------------------------------------------
    Senator Lankford. Thank you, Senator Carper, very much.
    I would like to recognize the Delegate from Washington, DC, 
Eleanor Holmes Norton, who I had the privilege to be able to 
serve with in the House of Representatives. We even served on 
Committees together. So, pleased that you are here. This is 
obviously a very important issue to you and your 
responsibilities, as well, and we would like to be able to 
receive any opening statement you would like to make.

      TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON, A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Lankford. It is a 
pleasure to appear before you as Chairman of this Committee, 
and my good friend and Ranking Member, Senator Carper.
    I realize that brevity is the coin of the realm. I will 
have very little to say. I will let these nominees speak for 
themselves.
    As for Carol Waller Pope, this is the fourth time I have 
been before you for her. That says everything about, I think, 
her distinguished record. She is being renominated to Chair the 
Federal Labor Relations Authority. She is the first civil 
servant to serve both as a Member and as the Chair of the 
Authority and we are very proud of her.
    We have two nominees to serve on our trial court, the 
Superior Court. You have summarized well, Mr. Chairman, their 
distinguished qualifications. Both have extensive litigation 
experience, which is very important for our Superior, our trial 
court.
    If I may, in closing, say to you, or bring to your urgent 
attention, what the Superior Court has asked me to indicate to 
you. First, we in the District of Columbia very much appreciate 
that last month, the Senate confirmed William Nooter and Steven 
Wellner to the Superior Court. These were the first local D.C. 
judges confirmed since May 2013. And I bring to the attention 
of the Committee that they are beginning to write articles in 
the District of Columbia about the slowness of trials in the 
District of Columbia because of pending nominations, perhaps 
other reasons, as well.
    I urge this Committee to move Todd Kim, who was nominated 
in February 2014 for the D.C. Court of Appeals and is awaiting 
a hearing, and Julie Becker, who was first nominated in April 
2015 for the Superior Court and is also awaiting a hearing.
    We hate to burden you with these local courts, but they are 
Article I courts, which is why we have to be here at all. There 
may be other candidates coming up in turn. I understand the 
busy schedule of the Senate and very much appreciate the time 
and effort you have taken with these nominees.
    Thank you very much.
    Senator Lankford. No, thank you very much.
    It is the custom of the Committee to swear in all witnesses 
that appear before us, so if you do not mind, I would like to 
ask you to stand and raise your right hand.
    Do you swear the testimony that you are about to give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Pope. I do.
    Mr. Salerno. I do.
    Ms. Soltys. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect the witnesses have all answered in the 
affirmative.
    I would like to take a moment of personal privilege before 
we actually move to opening statements here. Do you all have 
family members or friends that are here that you would like to 
introduce? And if you would like to do that, when you make an 
opening statement, would you please introduce them and then 
step into your statement, because there are a few folks that 
are behind you that probably are well deserving of some 
recognition in this process, as well.
    So, I would like to recognize Ms. Pope. You have been 
through this before. You will be the one with all the 
experience here at the table, so you can go first. If you have 
any individuals to recognize, and then receive your opening 
statement, we would be glad to do that.

 TESTIMONY OF THE HONORABLE CAROL WALLER POPE,\1\ NOMINATED TO 
      BE A MEMBER OF THE FEDERAL LABOR RELATIONS AUTHORITY

    Ms. Pope. Good morning. I want to thank you, Senator 
Lankford and Senator Carper, for conducting this hearing. I 
also thank the Committee staff for their work and meaningful 
assistance.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Waller Pope appears in the 
Appendix on page 26.
---------------------------------------------------------------------------
    I also want to thank Congresswoman Norton for being here 
today. As she said, she has been here on all three prior 
occasions that I have been before this Committee. I admire her 
illustrious career, and as a D.C. resident, appreciate her 25 
years of service as our Representative in Congress.
    It is my honor and privilege to be here today as President 
Obama's nominee to serve for a fourth term as Member, and if 
confirmed, to again serve as Chairman of the FLRA. I thank 
President Obama for the confidence and trust he has placed in 
me to serve in this leadership capacity at the FLRA.
    I also want to thank and introduce my family for their 
unwavering support and trusted guidance. With me here today are 
Lynda White and Fred Grigsby, Jr., who are here representing 
those of my family members who could not be here, along with 
many members of my extended family who are in attendance.
    I would be remiss if I did not acknowledge the collegiality 
and support of my fellow Presidential leadership at the FLRA, 
Member Patrick Pizzella, who Senator Carper referenced will 
also be appearing before you, his nomination is pending 
renomination; Member Ernest DuBester; General Counsel Julie 
Clark; and Federal Service Impasses Panel Chairman Mary 
Jacksteit; and Panel Member and former FLRA Chairman Donald 
Wasserman. I want to acknowledge and give thanks to Member 
DuBester and Member Wasserman who are here today in attendance 
representing our colleagues.
    I am here today standing on the shoulders of my parents, my 
father, a Pittsburgh steelworker, my mother, a domestic worker, 
both of whom embodied the principle of hard work. They worked 
hard to ensure that their four daughters had a foundation of 
love and education as well as their shared commitment to public 
service and to helping others.
    I have devoted my entire professional career to public 
service, first at the U.S. Department of Labor, and for 21 
years as a career employee at the FLRA. If confirmed, I will be 
the longest serving Member, a Presidential appointee, at the 
FLRA, and I have the distinct honor of having been nominated by 
three Presidents, President Clinton, President Bush, and 
President Obama, and it is my honor to have been confirmed on 
three prior occasions by this august body, the U.S. Senate.
    The FLRA encompasses in one small agency the investigator, 
prosecutor, adjudicator, and interest arbitrator for labor-
management disputes involving 1.2 million Federal employees. 
Since its creation as part of the Civil Service Reform Act, the 
FLRA has been committed to providing leadership and 
establishing policies and guidance related to Federal sector 
labor-management relations. For over 36 years, the FLRA has 
promoted labor-management relations for an effective and 
efficient government. Simply stated, the FLRA must meet the 
needs of the Federal workforce with high-quality legal 
decisions and alternative dispute resolution services to ensure 
that workplace disputes do not unduly impede the performance of 
Federal agencies in their missions to serve the American 
people.
    With respect to mission performance, the FLRA had a great 
year in 2015. I am proud to say that mission performance is No. 
1 for us, as was eliminating our case backlog. We know that 
protracted legal disputes are in no one's interest. They create 
problems in the workplace and certainly morale problems for the 
FLRA. So, we have worked hard and accomplished eliminating the 
backlog on the Member side of the house, which was due to a 
lack of a quorum of Members for over 10 months in 2013.
    Alternative dispute resolution (ADR), activities throughout 
the agency are very important. Over 80 percent of the FLRA's 
cases are resolved voluntarily by the parties with our 
servicers and facilitation through alternative dispute 
resolution. ADR is deeply embedded in the mission of the FLRA. 
We make it work. Offering it and making it work are two 
different things. During my tenure as Chairman, we formally 
integrated mediation and ADR into all aspects of case 
processing, in every component.
    In real terms, as just one example of our ADR efforts, the 
parties amicably resolved a dispute in 2 days of mediation, a 
dispute involving 44 contract provisions that would have taken 
a lot of resources of the FLRA if we had to render a legal 
decision on the negotiability of those 44 provisions.
    I proudly note on behalf of the FLRA that when I began my 
tenure as Chairman in 2009, employee morale at the FLRA was at 
an all-time low. In fact, the FLRA was ranked last among small 
agencies in the Partnership for Public Service's Best Places to 
Work in the Federal Government rankings. Our mission 
performance, which in my view goes hand-in-hand with employee 
morale and engagement, was also well below our annual 
performance targets.
    I am happy to note today that in fiscal year (FY) 2015, the 
FLRA captured the rank of No. 2 on three important indexes in 
the Office of Personnel Management's (OPM) Federal Employee 
Viewpoint Survey (FEVS): employee engagement, global 
satisfaction, and inclusivity of the work environment. We also 
achieved an all-time high employee response rate of 84 percent.
    Equally important to our mission success is that 99 percent 
of the FLRA's respondents, our employees, reported that they 
are willing to put in the extra effort to get the job done. 
Ninety-four percent believed that the agency is successful at 
accomplishing its mission. And 94 percent know how their work 
relates to the agency's goals and priorities.
    This year, the FLRA expects to improve upon its No. 5 
ranking in 2014. Obviously, No. 5 reflects an impressive and 
unprecedented improvement of over 300 percent since I became 
Chairman. This sustained progress from nearly 7 years ago 
reflects the commitment of all of the agency leadership, and of 
all levels of management, to operate with transparency and 
accountability, and to truly engage our employees. It reflects 
the hard work and dedication and commitment of all of our 
employees.
    If I am confirmed, I will continue to work hard every day 
with my FLRA colleagues throughout the country, some of whom--
many of whom--are at this hearing today, and I appreciate their 
being here and countless others who are following the live 
stream of this proceeding. I pledge to them to build on a 
culture of excellence, this record of success in our mission 
performance, and employee engagement for effective and 
efficient government.
    Mr. Chairman, I thank you for this opportunity to be here 
today and I would be pleased to respond to any questions.
    Senator Lankford. Thank you.
    Mr. Salerno, could you introduce any family or guests that 
you may have here, and we will be proud to receive your opening 
statement, as well.

TESTIMONY OF ROBERT A. SALERNO,\1\ NOMINATED TO BE AN ASSOCIATE 
    JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Salerno. Thank you, Mr. Chairman and Members of the 
Committee. I am honored to appear before you today as a nominee 
for Associate Judge of the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Salerno appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    I would like to thank the District of Columbia Judicial 
Nomination Commission, including its Chair, District Judge 
Emmet Sullivan, who is here today, for recommending me to the 
White House, President Obama for nominating me, and 
Congresswoman Eleanor Holmes Norton for introducing me to the 
Committee.
    I would not be here today without the support and 
encouragement of family, friends, and colleagues. Family 
members who are with me today are my wife, Juanita, my son, 
Evan, and Michael and Robert Guberman.
    Senator Carper. I think we see your wife over your right 
shoulder. Where is your son? Would you raise your hand?
    Senator Lankford. Right there.
    Senator Carper. OK, thanks. Thanks so much. The young guy.
    Mr. Salerno. Yes. My daughter, Alex, is finishing up her 
fall semester at Skidmore College in New York, but she and 
other family members, including my sisters and nieces, are 
watching on the Committee's streaming video.
    My parents are no longer with us, but they would have been 
proud today if they were, especially my father, who always 
encouraged me to go to law school.
    And I also want to acknowledge the colleagues and friends 
who have come here today to show their support.
    I am excited by the opportunity to serve on the Superior 
Court. I would bring to the position more than two decades of 
experience as a litigator in the District of Columbia, recent 
quasi-judicial experience, and a deep commitment to the city.
    I have been a resident of the District of Columbia for 25 
years and raised two children here. During that time, I have 
had a very varied and rewarding career in private practice. I 
have litigated civil and criminal matters in Federal and State 
courts across the country, handling everything from high-stakes 
commercial litigation, to alleged criminal conduct by 
individual clients, to pro bono matters on behalf of our most 
vulnerable residents. I have been fortunate to work on 
sophisticated matters with extremely talented colleagues.
    At the same time, I have always had a strong interest in 
public service. Prior to becoming a lawyer, I was a Peace Corps 
volunteer in Ecuador, which is where I met my wife, Juanita. I 
also volunteered to serve as a Hearing Committee Chair for the 
Board of Professional Responsibility, and in that capacity, I 
conducted evidentiary hearings on formal charges of 
professional misconduct by members of the District of Columbia 
Bar.
    But, I am now at a point in my life where I am ready and 
able to focus one hundred percent of my energy on public 
service. It would be a privilege for me to do so as an 
Associate Judge on the Superior Court. Judges have a unique 
ability to make a difference in the community on a daily basis, 
and for many of our citizens, judges are the personification of 
the judicial system. I can think of no greater honor for a 
lawyer than to be entrusted with the responsibility that comes 
along with being a judge. My broad and diverse experience in 
private practice, together with my experience as a Hearing 
Committee Chair, make me confident that I would be a good judge 
and that I would enjoy serving in that role.
    If confirmed, I would work hard every day to achieve fair 
outcomes in accordance with the law for all persons who come to 
the District of Columbia Superior Court seeking justice and due 
process and to do so as efficiently as possible.
    Thank you for considering my nomination, and I look forward 
to answering your questions.
    Senator Lankford. Thank you.
    Ms. Soltys, glad you are here. We would be glad to be able 
to receive the introduction of any family members or friends 
that are here and then your opening statement.

TESTIMONY OF DARLENE M. SOLTYS,\1\ NOMINATED TO BE AN ASSOCIATE 
    JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Soltys. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Committee, thank you for an opportunity to 
appear before you as a nominee for the position as an Associate 
Judge in the District of Columbia's Superior Court.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Soltys appears in the Appendix on 
page 92.
---------------------------------------------------------------------------
    I thank the Judicial Nomination Commission and its 
Chairman, the Honorable Emmet G. Sullivan, for recommending me 
to the White House, and, of course, to the President for 
nominating me. Also, thank you to Congresswoman Norton for her 
kind words in introducing me today.
    I am honored by the presence of those who are here today to 
support me, including my law enforcement partners from the 
Federal Bureau of Investigations (FBI) and the Metropolitan 
Police Department and my colleagues from the United States 
Attorney's Office, including U.S. Attorney for the District of 
Columbia Channing Phillips and the Principal Assistant United 
States Attorney, Jim Dinan, who for many years was my chief 
supervisor.
    I would also like to acknowledge and thank my parents, who 
I expect to be here today, Al and Emily Soltys. I am who I am 
because of them.
    I am also grateful for the love and the support of my 
spouse, Pilar Suescum, and our two daughters, Gabriela and 
Lilian, who are seven and nine, who are home in bed sick.
    I was raised in Anne Arundel County, Maryland. My father's 
32 years at the National Security Agency (NSA) taught me the 
value of hard work and the importance of public service.
    I came to Washington, DC, in 1987 to attend law school at 
Georgetown University. Since then, I have lived on Capitol 
Hill. Serving the community and the public interest is one of 
the most satisfying aspects of my profession.
    My legal career began as a judicial law clerk to the 
Honorable Gregory E. Mize of the Superior Court, who I am 
honored to report is here today at this hearing. Thereafter, I 
have served as a prosecutor, handling diverse criminal offenses 
in Washington, DC, in both the Superior Court and the Federal 
District Court for the District of Columbia, where I have had 
the privilege of serving in front of Judge Emmet G. Sullivan.
    I have also served as a prosecutor in the Circuit Court for 
Prince George's County, Maryland, and this career path has 
exposed me to the myriad of issues plaguing our community and 
has impressed upon me the importance of the government's 
responsibility to ensure justice in our society. I have had the 
privilege to appear before many fine jurists who care deeply 
about the fair administration of justice and due process for 
all, and these inspiring role models are essential to the 
effective functioning of our legal system.
    I would be honored to put my experience to work to ensure 
that the people of this city receive impartial and thoughtful 
consideration of their matters and that justice is served with 
fairness and respect for all.
    Thank you for considering my nomination, and I look forward 
to answering any questions that you may have.
    Senator Lankford. Thank you all.
    I have three questions that are not fun, but they are 
mandatory questions that I am going to ask of each of you. I 
will say it out loud and then I will ask each of you to answer 
verbally for these, and then we will have questions from the 
dais after that.
    The first question for all three of you, is there anything 
that you are aware of in your background that might present a 
conflict of interest with the duties of the office to which you 
have been nominated? Ms. Pope.
    Ms. Pope. No.
    Senator Lankford. Mr. Salerno.
    Mr. Salerno. No.
    Senator Lankford. Ms. Soltys.
    Ms. Soltys. No.
    Senator Lankford. OK. Second question. Do you know of 
anything, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated? Ms. Pope.
    Ms. Pope. No, Senator Lankford.
    Senator Lankford. Mr. Salerno.
    Mr. Salerno. No, Mr. Chairman.
    Senator Lankford. Ms. Soltys.
    Ms. Soltys. No.
    Senator Lankford. Thank you. Third, do you agree, without 
reservation, to comply with any request or summons to appear 
and testify before any duly constituted Committee of Congress 
if you are confirmed?
    Ms. Pope. Yes.
    Mr. Salerno. Yes.
    Ms. Soltys. Yes.
    Senator Lankford. Thank you.
    I defer to Senator Carper for his questions.
    Senator Carper. Thanks, Mr. Chairman.
    Several of you have mentioned the name, I think it was 
Judge Emmet Sullivan, who is not only a judge, but also the 
Chairman, apparently, of the Nominating Commission who sent 
your names forward to the President and then on to us. I 
understand he is here today, and I would just ask him to raise 
his hand. Good. Judge Sullivan, nice to see you.
    Senator Lankford. Maybe we should swear him in and bring 
him to the table, as well. [Laughter.]
    Senator Carper. That is not an easy job and thank you for 
taking it on.
    I would like to start off, if I could, with a question of 
Ms. Pope. Every year, we receive, like the world gets it to 
take a look at it, but a report on morale, employee morale 
within the Federal Government. We are the authorizing Committee 
for the Department of Homeland Security (DHS) and have a 
special interest in the importance of the work that they do. We 
were reminded of it just again yesterday with the tragedy in 
San Bernadino. But, we are also concerned that the people who 
work there not just enjoy their work, but they feel fulfilled 
by their work.
    One of the things that I found of interest was that the 
folks who work at the FLRA did not always have very good morale 
and it seems to have continued to improve over time, a time 
that sort of coincides with the time that you have been a 
Member of the Authority and most recently chairing it. What is 
going on? I have a friend of mine, Alan Blinder, who used to 
say, when asked about getting good results in something, he 
said, find out what works, do more of that. And, so, we would 
like to find out what is working and maybe we can throughout 
the rest of our Federal Government do more of that. Go ahead.
    Ms. Pope. Thank you for that question, Senator. I have said 
that employee engagement begins on the first day of an 
employee's work life, and in some instances, it goes downhill 
from there. We were certainly disappointed to be last in the 
survey results in 2009-2010. When I became Chairman in 2009, it 
was important for me to hear from employees and to respect 
their views and concerns, and I started on a listening tour 
within the offices of the FLRA.
    I also went to the agencies. To the point of your question, 
the Nuclear Regulatory Commission (NRC) at the time was No. 1, 
and I went out there and talked to the Chairman and said, how 
do you do it? What do you do?
    Senator Carper. You know, ever since you had that 
conversation, they have been going down----
    Ms. Pope. I have noticed that. [Laughter.]
    Senator Carper. And you guys are going up.
    Ms. Pope. I also have to say for the record, he is no 
longer there.
    Senator Carper. They will be coming to you pretty soon. 
[Laughter.]
    Ms. Pope. Leadership is important. I think one of the 
important factors is to establish some core values--
transparency, accountability of leadership, communication, and 
I think those are values that should be embedded in an agency, 
regardless of the leadership. I have been fortunate to be a 
part of a leadership team that shares those values.
    So, one of the other things that we did, when we looked at 
the first survey and we zeroed in on the areas where we scored 
the lowest, we went behind the survey results and the questions 
and conducted our own internal surveys and asked to find out 
more. And then we asked employees to sit with us and develop 
initiatives to address some of the problems, and we do that 
every day, and that is the part of sustaining and improving 
employee engagement and satisfaction. It never ends.
    I started with saying the first year I was going to 
revitalize, reengage, and reinvent the agency, and I also said 
it was the year of the employee. Well, after 6 years as 
Chairman, I realize every year is the year of the employee.
    Senator Carper. That is good. I like that.
    I have another question of you, but before I do, I want to 
ask a quick question of Ms. Soltys. There is a young couple 
that just came into the hearing room and they took two seats 
right behind you, kind of over your left shoulder, and you sort 
of look like them. [Laughter.]
    Do you know these people?
    Ms. Soltys. I would be honored to introduce my parents, Al 
and Emily Soltys. I would like to just repeat the remarks that 
I made earlier, which is that I am who I am because of them and 
I am proud that they are here.
    Senator Carper. I think it is great that you came. People 
sometimes say to me, I am sure they say this to Senator Portman 
and Senator Lankford, what are we proudest of in our lives, and 
I always say my sons. We know you are proud. Thank you very 
much for raising this kid and presenting her to us today to 
serve.
    Mrs. Emily Soltys. I am sorry. We could not find a parking 
spot. [Laughter.]
    Senator Carper. Sometimes I cannot find parking spots, 
either, Ms. Soltys. It happens to all of us, but we are glad 
you found one and you made it in. Welcome.
    Another question, if I could, for Ms. Pope. Chairman Pope--
do people call you Chairman? What do they call you?
    Ms. Pope. Yes. Chairman.
    Senator Carper. OK. When you look at backlog--you talked a 
little bit about this in your statement, but could you just 
come back and tell us again what did you and the Authority and 
the folks who work with you, for you, with you, do to achieve 
these results and what plans do you have going forward to 
continue to improve efficiencies and keep things on track? We 
face big backlogs in a lot of other areas. Veterans Affairs 
(VA) is certainly one of them. But, just talk about what some 
other agencies might learn from what you all have done.
    Ms. Pope. We started with setting ambitious goals. We 
communicated to employees what our goals would be. We 
recognized that it would be a multi-year effort. When I became 
a Member in 2000 and Chairman in 2009, we had a backlog of over 
300 cases, and it was a multi-year effort and we celebrated 
every step of achievement, and I think that was part of what 
kept us on target to move forward.
    I was proud to say that we eliminated--a backlog for us is 
a case that is pending before the Authority members for over 
180 days, and we again developed a backlog when we were without 
a quorum. There are three of us, and if there are fewer than 
two, we cannot issue decisions.
    The other factor that we paid attention to is the 
recruitment, retention, and training of our staff. One of the 
factors that contributed to the backlog was that we had some 22 
vacancies when I became Chairman and we aggressively looked to 
build a human resources staff. Part of what is important is the 
infrastructure of the agency, to give support to the attorneys, 
the case writers that do the work. I am remiss every time I 
speak when I do not acknowledge the importance of human 
resources (HR) and administrative services and our information 
technology (IT) department.
    But we all came together as a team and we continue to do 
that. We continue to publish our goals in our weekly 
newsletter. On a monthly basis, we say what we have achieved, 
and then we celebrate success.
    The other aspect of it is the reallocation of resources. 
For the first time ever, we have looked at--we have reemployed 
annuitants. We had an HR department to advise us to use every 
hiring flexibility possible to bring people on board quickly, 
to find qualified, diverse staff. And all of that contributed 
to our eliminating our backlog. Now that we have done that, we 
want to pay attention to technology developments, use resources 
for IT as well as to empower employees to reinvent our case 
process, where we can have time savings and cost savings in how 
we do the work. Those have all contributed to that.
    Senator Carper. Thank you for all of that.
    I would say, I have one other question. I am not going to 
ask it. I will ask it for the record. I will mention what it 
is. I always want to treat, and my colleagues are the same way, 
we want to treat other people the way we would want to be 
treated, and we feel like there is an obligation with respect 
to judicial nominations. If we are going to be involved in the 
confirmation process--and we are, clearly--then we need to be 
responsible and to act, really, in a more timely way. And I am 
pleased that the Chairman feels that way. I feel it very 
strongly.
    I am going to ask you for the record. Here is the question. 
To what extent does the fact that we have delayed, in some 
cases, the two people who were just confirmed last month for 
these judgeships, to what extent does it reduce the likelihood 
that somebody is going to be interested in putting their career 
on hold, being sort of, like, held out there for a year or two 
waiting for the opportunity to serve? To what extent does that 
reduce the interest in good people wanting to serve? That is 
the question I will ask you to answer for the record, but my 
gut tells me that cannot be very helpful. That cannot be very 
helpful, certainly not very fair.
    Mr. Chairman, thank you for letting me go first. We have an 
unscheduled caucus meeting today. It starts in about 20 
minutes, and I will be in and out after this. And I, just 
again, want to thank you all. Thank you for your courtesy, Mr. 
Chairman.
    Ms. Pope. Thank you, Senator.
    Senator Lankford. Thank you, and I hope that caucus meeting 
goes extremely well. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and thank you all 
for stepping up to serve. Trust in Government is not at a high 
water mark right now, and so able people willing to step 
forward with good character is really important to try to 
regain some of that trust.
    Mrs. Soltys, you will be disappointed to know that your 
daughter will not have any jurisdiction over parking. 
[Laughter.]
    I looked at what the Superior Court has responsibility for. 
I do not think it fits under her new responsibilities, but 
otherwise, it is a really important job.
    Interestingly, we were talking about what the successes 
have been on workplace improvements under your leadership, 
Chairman Pope, and here is a letter of congratulations from 
Senator Danny Akaka, Chairman of the Subcommittee of Oversight 
of Government Management and the Federal Workforce, a 
Subcommittee I have served on, in September 2010, 
congratulating you for the dramatic improvement in the 2010 
Best Places to Work rankings, so----
    Ms. Pope. I framed a copy of that letter.
    Senator Portman. There you go.
    Ms. Pope. I was very honored to receive it. [Laughter.]
    Senator Portman. This Committee has already weighed in, it 
sounds like.
    I have a few questions, if I could, for the judges. To 
Judge Salerno, you have an extensive litigation career--both of 
you. As you said, Ms. Soltys, you have appeared before a lot of 
different judges and worked for judges. My question to you 
would be, what do you think constitutes judicial temperament? I 
mean, what are the elements of judicial temperament that are 
most important for a trial judge, which is what you are hoping 
to be?
    Mr. Salerno. Shall I go first?
    Senator Portman. Go ahead, Judge Salerno.
    Mr. Salerno. The best characteristics of a judge include 
someone who treats all litigants with respect, is patient, 
thoughtful, deliberate, and a good listener, is always well 
prepared and hard working, and issues reasoned decisions.
    I think disputes come to court and not everyone is going to 
be happy with the way disputes are resolved, but hopefully, all 
litigants in my courtroom would feel happy with the process, 
that they have been treated properly, that their issues have 
been dealt with in a respectful way, in a deliberate way, and 
even if they do not agree with the result, feel that they have 
had their day in court and had a fair shake. And, if I could 
achieve those things as a judge, I think I would be very 
satisfied.
    Senator Portman. Ms. Soltys.
    Ms. Soltys. Thank you, Senator. Senator, I echo my 
colleague's answer to you. I have appeared before many judges 
and I have seen different types of judicial temperament. What I 
think is most important is that the person who is serving as a 
judge is impartial, is fair, is respectful toward all litigants 
in the courtroom, and who treats people the way that they want 
to be treated. A judge has to be prepared. And a judge also has 
to have a healthy dose of humility, because a judge should 
recognize that he or she may not know the facts of the case 
better than the parties that are in the courtroom.
    And as has been my honor as an Assistant United States 
Attorney to represent the United States in court, what I love 
about my job and what excites me about that job, my current 
job, is the role that I play in ensuring that there is a fair 
and just criminal justice system, and that is the same thing 
that would excite me to serve as a Superior Court judge, that 
is, the role that I would play in ensuring that there is a fair 
and just legal system.
    As Mr. Salerno said, what matters at the end of the day is 
not whether the litigants are pleased with the ruling, because 
half of them will not be, but rather that they left the 
courtroom recognizing that they had a fair hearing, that I was 
thoughtful, that I was deliberative, and that I made my ruling 
with impartiality.
    Senator Portman. Thank you. Very good answers, Mr. 
Chairman.
    By the way, the Chief Judge, as I understand it, determines 
which division, criminal or civil. Has that decision been made? 
It cannot be made until you are confirmed, I take it.
    Ms. Soltys. That is correct. There is also a family 
division, so there are three different divisions.
    Senator Portman. Let me ask you a more specific question, 
and this is, again, sort of getting at this issue of your 
approach to determining tough calls. Let us say there is a 
summary judgment motion before you and it is a tough decision. 
It is a very close call. In deciding whether to grant that 
motion for summary judgment, would you consider as a tie-
breaker that granting the motion would prevent the case from 
reaching a fact finder? Mr. Salerno.
    Mr. Salerno. I do not think that consideration should play 
a part in which way to rule on a summary judgment motion. A 
summary judgment motion, as in any other motion, should be 
decided based on determination of the record, the determination 
of what is the applicable law, finding the facts, and applying 
the law to those facts in an unbiased way. And if it comes out 
in favor of summary judgment, so be it, and if it does not, 
that is what trials are for.
    Senator Portman. Ms. Soltys.
    Ms. Soltys. Senator, about 15 years ago, I had an 
opportunity to serve on a jury, and I learned from that 
experience that jurors are inclined to base their verdicts on 
their feelings and their emotions. Ever since that time, in my 
opening statements to juries and in my closing arguments, I 
remind them of the oath that they have taken to decide this 
case based on the facts and the evidence and not based upon 
their feelings or their emotions or sympathy or prejudice to 
one side or another.
    I understand that if I were confirmed, my role would be to 
make a factual record for possible appellate review, and I 
would do that by making findings of fact that are based upon 
logical determinations of the evidence, and then I would make 
conclusions of law that are based upon the governing precedent. 
I do not believe that it is appropriate for a judge's personal 
views to influence in any way the outcome of a decision.
    Senator Portman. So, in this case, the reasonable juror 
standard that you use when you are deciding whether to grant a 
summary judgment would be what you would use, but you would use 
it based on the facts of the case. I like your answers. I do 
not know if there is a right answer or a wrong answer. I think 
those are the correct answers for a judge, and I appreciate, 
again, your willingness to serve and thank all three of you for 
being here today. I wish you good luck.
    Mr. Salerno. Thank you, Senator.
    Ms. Soltys. Thank you.
    Senator Lankford. Let me just say, I will have questions 
for all three of you, as well, but for the judges, I have a 
longtime friend of mine who is an attorney. Folks used to say 
to him all the time, you should consider being a judge, and his 
answer was always the same every time. ``I am not arrogant 
enough to be a judge.'' [Laughter.]
    And he would just say it over and over again. But guess 
what he is doing now. [Laughter.]
    He is a judge, and a very good one. So, there is a certain 
sense of humility walking into it, but a certain sense of very 
thick skin, because you have very difficult issues that the 
United States has said to you, make this decision. You 
represent all of us. And we have an expectation that you are 
going to make the hard call.
    And, so, I understand the depth of that decision for you 
and the difficulty of that at times, but you have gone through 
a difficult process to get to here, and then we are finishing 
out this conversation today with that. But, that responsibility 
is large on you.
    Ms. Soltys, let me ask you a little bit, you have a pretty 
remarkable background in dealing with drugs and narcotics. 
Given your past record of dealing with high-profile drug cases, 
how will that fight continue and how will that affect you as a 
judge in the issues that we face here in the District dealing 
with drug issues?
    Ms. Soltys. Senator, I would say this. My experience as a 
prosecutor over the years has involved participating in 
prosecuting homicide cases, rape cases, and narcotics 
conspiracy, racketeering conspiracy cases. I recognize the 
problems that are plaguing our community, and when I was a law 
clerk to Judge Mize, one of the very first assignments that we 
had was sitting on the child abuse and neglect calendar, in 
which many of the children that were brought into that 
courtroom were the children of parents who had addictions. 
Throughout my entire career, I have seen the harm that drug 
addiction causes to families and to communities.
    I have said, as a judge, I have an obligation to set aside 
my personal views and to make findings of facts and conclusions 
of law based upon the evidence that is presented to me and that 
is a job that I assume willingly. I cannot emphasize any more 
than my record has demonstrated, that the harm that is caused 
by the sale of drugs, the violence that is attendant to that, 
is deeply troubling to our society and has a direct negative 
impact on the quality of life that our citizens hope to enjoy.
    Senator Lankford. It is a national issue for us. It is not 
a D.C. issue. It is a border-to-border issue, that we are 
dealing with a rapid rise in addiction and the consequences 
that come with that and the destruction on families and 
communities that are around it.
    You have been able to use your prosecutorial discretion on 
bringing some cases up and some cases not. Now, you do not have 
that same ability. You have a full calendar at that point. How 
will you balance that out between, I am taking every case that 
is sitting in front of me, knowing full well there will be some 
cases that will land on your desk that you would think, if I 
was on the other side of this desk, I would not have brought 
this. But, how will you balance that out?
    Ms. Soltys. As you know, the law, there is always a 
balancing that takes place. As a prosecutor, I have a heavy 
caseload and I recognize the need to move my caseload, and I 
recognize that justice delayed is often justice denied. On the 
other hand, I also recognize that behind every docket number, 
there is a human face. There is at least one person, one human 
life that will be affected by the decisions that I make.
    One of the things that Judge Mize told me very early on 
was--and that has stuck with me all these years--is that 
whatever case you are working on at the time is the most 
important case that you have. So, I recognize that it is 
important to move cases along efficiently, but also correctly, 
and that determining the balance is obviously a challenge that 
judges face, but it is a challenge for which I am up to the 
task.
    Senator Lankford. Mr. Salerno, let me ask you, you have had 
a long career in private practice. How does that affect you 
walking onto the bench as far as shaping how you think about 
all of these issues? What should be an expectation, I guess, of 
the other attorneys that are then coming to the bench, based on 
your prior record?
    Mr. Salerno. Sure. I have had a very varied career in 
private practice, and as a result, I have developed, I think, 
an ability to get up to speed quickly on new areas of the law, 
and I think that is a skill that would serve a judge on the 
Superior Court well. Also, I believe over years of private 
practice, I have developed an ability to get to the heart of a 
dispute and to figure out what is material and what is 
important and what we should spend our time and energy on. I 
also think that that is something that I would bring to the 
bench.
    I have been representing clients as an advocate, and when 
you represent clients as an advocate, you are 100 percent in 
their corner as an advocate. However, you would be doing a 
client a disservice by not stepping back, taking an objective 
and unbiased look at your client's case and explaining to your 
client how you think the case is going to come out if it were 
litigated. So, that, in a sense, even though I have been in 
private practice all the years, I have been, hopefully, honing 
an ability to do that.
    And I have had some recent, as I mentioned in my opening 
statement, some recent quasi-judicial experience as a hearing 
committee chair, where I have had a taste of what it would be 
like to be a judge, and to, again, to put aside any 
preconceptions and biases and make rulings, findings of fact, 
conclusions of law based on the evidence. I hope I have done so 
in a way that the board would be pleased with, and those are 
qualities that I think I would bring to the bench.
    I hope that was responsive to your question.
    Senator Lankford. Sure. Yes, it is.
    Ms. Pope, let me ask you a question. Government funds the 
FLRA, the Equal Employment Opportunity Commission (EEOC), and 
the Merit System Protection Board (MSPB), all to adjudicate 
disputes between Federal agencies and unions and employees. Is 
there overlap? Is there a need to be able to combine some of 
these for efficiencies? You have seen this from a long view now 
and you have experienced some things and you bring some things 
to the table here that others do not. How do those three work 
together, and where can the taxpayer be best served, and where 
is it that the Federal employees and agencies can be best 
served with the interaction of those three?
    Ms. Pope. Thank you for that question. I have learned over 
the years that there is a very small part of Title 5, the Civil 
Service Reform Act, where there is overlap with respect to the 
agencies that you mentioned. We have some 5,800 cases filed a 
year among the components of the FLRA. We may have an unfair 
labor practice charge or an arbitration case that comes up 
through the appeals process to the Authority that may address 
some aspect of an equal employment opportunity violation or 
some aspect of some other jurisdiction, some other legal 
statute.
    We have very little overlap that would impact in any way 
the resources of the FLRA, the EEOC, and any consideration of 
overlap that would result in any combination of those agencies. 
It has not happened with any degree of regularity. I do not 
know that there has been any case where we have worked together 
on----
    Senator Lankford. Is there any confusion for individuals, 
that as they are going through the process of filing and 
choosing where they are going to go, or through the agencies to 
say, no, we got this phone call that should really go to here, 
or where does that land?
    Ms. Pope. Well, every Federal agency has carved out through 
the law created by Congress, the legislative body, their area 
of jurisdiction. So, it is not unusual for the FLRA to get a 
call that is a matter of an employee that is under the 
jurisdiction of the National Labor Relations Board (NLRB). It 
is not unusual that we would deny a case, dismiss a case, 
because of a lack of jurisdiction over the issue. There are 
contractual issues that are not within the purview of the 
statute under which we review arbitration decisions that 
interpret the party's contract. So, the overlap is one that, in 
some regard, the bureaucracy of government contributes to, but 
it has not been a barrier to the FLRA's performance.
    Senator Lankford. OK. Let me ask you about some perspective 
things, as well. There is a case that I know you are familiar 
with, U.S. Department of Homeland Security, U.S. Customs and 
Border Protection (CBP), National Treasury Employees Union 
(NTEU), 2012, that dealt with the role of the Inspector 
General's (IG) Office. How do we integrate the Inspector 
General and their work and their unique responsibilities, as 
well as collective bargaining and negotiation and all of those 
things? What is the view now of your agency on how the 
Inspector General fits into collective bargaining and what 
happens now?
    Ms. Pope. Well, one thing that we do not do is set policy, 
and with respect to the role of Inspectors General or the role 
of collective bargaining with respect to investigatory 
interviews conducted by an Inspector General in an agency. What 
we do review when the issue is presented before us in an 
individual case, and in that case you mentioned with respect to 
the negotiability of a provision regarding the union's 
opportunity under the statute to be a part of an investigatory 
interview conducted by an Inspector General.
    With respect to the FLRA, we look to apply in that case the 
precedent of the Supreme Court, a National Aeronautics and 
Space Administration (NASA) decision that touched on a similar 
issue with respect to the role of the Inspector General that 
affirmed an FLRA position with respect to that. We were 
overturned by the courts in our application of the NASA 
decision, but in every case we make a decision on the facts of 
that case. We do not set policy with respect to how the 
Inspector General may interact in investigatory interviews in 
the workplace.
    Senator Lankford. OK. Let me ask a little bit on the 
backlog issue, as well. If I am reading the numbers correctly, 
about a third of the cases in the past, let us say, 4 or 5 
years have been dismissed based on procedural grounds, and I 
think it is part of just this trying to move things. How does 
that fit, and help me understand, if I am coming through and it 
gets dismissed on procedural grounds how it actually still gets 
heard, the meat of the argument. Is that a matter of refiling? 
What happens at that point? If it is dismissed for procedural 
grounds, how does the core of their argument still get heard? 
Is it a start over process? What happens there?
    Ms. Pope. There are different types of cases that come 
before the FLRA, so a response to your question in some part, 
in large measure, depends on the type of case that is before 
us. A procedural matter that would result in the dismissal or 
the FLRA not addressing the merits of an argument in the review 
of an arbitration case, for example, is based on the fact that 
the parties did not make the argument below and they cannot 
make it for the first time before the Authority. So, we have 
very limited grounds for review, and the Authority decision 
with respect to arbitration cases, which the parties have that 
process in their contract, they choose an arbitrator, they 
litigate before the arbitrator, and when the Authority reviews 
arbitration decisions, it is finality. There is no other 
opportunity.
    So, if they fail to make an argument before the 
arbitrator--we do a lot of training and education, because we 
feel as though the parties, in our view, are managers, 
employees, and union representatives--if they understand their 
rights and responsibilities, then they know to file a grievance 
versus an unfair labor practice charge so it does not result in 
a procedural dismissal.
    Senator Lankford. What is the speed, typically, that they 
can get an answer to that? Do they typically go through several 
months waiting and then find out, no, this is a procedural 
issue, or is it fairly rapid once they start the process, they 
will understand there is a procedural process here?
    Ms. Pope. The 180 days before the Members does not start 
counting until we go through the procedural review, our Case 
Intake and Publication (CIP) office. And, so, we move those 
cases pretty quickly. It is not in anybody's interest to 
maintain an inventory in our docket office. So, some of the 
procedural delay is the time it takes for responses to filings, 
and so the time period that cases sit in the CIP office are not 
just because we have not processed them quickly. You have to 
allow the process to evolve for the responsive filings. But, if 
there is a procedural deficiency, those cases move forward, 
move through to decision in 30 to 60 days.
    Senator Lankford. Good. So, you have a tremendous amount of 
experience you walk into this with. If confirmed for this next 
round, and I am impressed you want to take another round in the 
ring here, if confirmed, what changes do you see immediately 
that you would say, you have moved the agency in many ways. You 
have improved the relationships among the body of the staff and 
the individuals that work there, trying to deal with backlog 
issues. What is the next mountain you are going to climb?
    Ms. Pope. We have a shifting workforce--I think it is true 
throughout the Federal Government--with the retirement bubble, 
and, so, one of the challenges, I think, that I would face 
moving forward, if I am confirmed, is to continue the high 
quality work, to ensure that we devote enough resources to 
train and retain a quality workforce. It is also an issue of 
succession planning, as the senior leadership, the managerial 
leadership, retires.
    We have been very successful in making a commitment to 
leadership training, to supervisory training. I have learned in 
this business that a first-line supervisor has the hardest job 
in the workplace. They often do not get enough information from 
upper management and they have to deal and resolve with 
workplace disputes, workplace conflict in an instant without, 
oftentimes, the ability to consult with labor relations 
professionals.
    So, for me, the challenges moving forward are to retain a 
highly engaged and qualified staff. Diversity is an important 
priority moving forward, if I am to be confirmed, as well as 
continuing to evolve alternative dispute resolution in areas 
that we have not done as much work in in the arbitration field.
    And, of course, continuing innovation in the workplace is 
very important. It takes a lot of resources and commitment. The 
day we publish a new webpage, it is almost obsolete and it is 
hard to keep up with technology. You have to give technology to 
every employee in the workplace to retain newer employees as 
well as to give the services to our customers. So, we devote a 
lot to that and that is a priority of mine moving forward.
    Senator Lankford. Great.
    Senator Ernst, did you have additional questions?

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. I appreciate it. 
Yes.
    For Mr. Salerno and Ms. Soltys, please describe your 
current thoughts on what it means to be an independent judge as 
well as the importance of judicial independence, just in your 
own words.
    Ms. Soltys. Should I go first?
    Mr. Salerno. Sure.
    Ms. Soltys. Thank you, Senator. Senator, I gave an answer 
earlier which I would like to repeat for your benefit----
    Senator Ernst. OK. Thank you.
    Ms. Soltys [continuing]. Which is that I served on a jury 
and I saw that jurors are inclined to decide cases based on 
their feelings and their emotions, and not on the facts and not 
on the evidence. And since that time, in every opening 
statement and in every closing argument that I have made to a 
jury, I have reminded them of the oath that they took to decide 
this case based on the facts that they have heard and not based 
on sympathy or prejudice to one side or the other. And that 
same oath that I ask the jurors to uphold is the same oath that 
I would uphold every day as a judge.
    Senator Ernst. Very good. Thank you very much.
    Certainly, Mr. Salerno.
    Mr. Salerno. Yes. The most important thing for a judge is 
the unbiased application of the law to the facts, and as a 
judge, it is our job, and I would believe I can do so, to put 
aside any personal beliefs, prejudices, and decide in an 
unbiased, fair manner.
    Senator Ernst. Very good. I appreciate it very much. Thank 
you both for stepping up and accepting this challenge.
    And, Chairman Pope, what is your assessment of the current 
state of Federal labor-management relations, and you have 
touched a little on this, but if you could just expound a 
little bit further, please.
    Ms. Pope. Thank you for that question. It is an evolution, 
as any relationship is an evolution. We are in a period where 
we have worked very hard to encourage collaboration and 
cooperation in the resolution of workplace disputes. We know 
that to the extent that we can give the parties the tools that 
they need, our innovation has contributed to that with respect 
to web-based, for the first time, web-based training, where 
supervisors can sit at their desks. We have encouraged in every 
managerial leadership discussion we have been invited into that 
labor-management relations should also be taught to a 
supervisor and it should not be trial by fire.
    And, so, in that regard, labor-management relations 
throughout the government is a factor that we take seriously 
because it contributes to an effective and efficient 
government. If there are workplace disputes, it impacts mission 
performance.
    Senator Ernst. Yes, it does.
    Well, thank you all. I do not have any further questions, 
but I want to thank all three of you for, again, stepping up to 
the challenge and your exceptional service for all of our 
constituents. Thank you.
    Ms. Soltys. Thank you.
    Mr. Salerno. Thank you, Senator.
    Ms. Pope. Thank you.
    Senator Lankford. Thank you.
    Senator Ernst. Thank you, Mr. Chairman.
    Senator Lankford. Thank you all for being here. Let me read 
a final statement, and then we will close all this fun out and 
let you all get a chance to connect with family and friends for 
the conversation, and then we will move this on to the full 
Senate in the days ahead.
    Mr. Salerno, Ms. Soltys, and Ms. Pope have filed responses 
to biographical and financial questionnaires, answered 
prehearing questions submitted by the Committee, and had 
financial statements reviewed by the Office of Government 
Ethics. Without objection, this information will be made part 
of the hearing record, with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee offices.
     The hearing record will remain open until noon tomorrow, 
December 4, 2015, for the submission of statements and 
questions for the record.
    With that, this hearing is adjourned. Thank you all for 
being here.
    Ms. Pope. Thank you.
    Mr. Salerno. Thank you.
    Ms. Soltys. Thank you.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
